CERTIFICATE OF SERVICE
NO. TBD
Radcliffe et al.
Petitioner(s)
v.
Experian Information Solutions Inc., et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ROBERT
RADCLIFFE ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Daniel John McLoon
Jones Day
555 South Flower Street
50th Floor
Los Angeles, CA 90071
(213) 489-3939
Counsel for Experian Information Solns. Inc.
and Equifax

Stephen J. Newman
Stroock & Stroock & Lavan LLP
2029 Century Park East, 16th Floor
Los Angeles, CA 90067
(310) 556-5800
Counsel for Trans Union LLC

F. Paul Bland, Jr.
Public Justice, P.C.
1620 L Street, N.W.
Suite 630
Washington, DC 20036
(202) 797-8600
Counsel for Jose Hernandez, Robert Randall,
Bertram Robison, Kathryn Pike, Lewis Mann

Lucas DeDeus

March 16, 2020
SCP Tracking: Carpinello-30 South Pearl Street-Cover White

